<html>
<title> - THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-437]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-437

 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2016

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
        
        
        
        
        
                        U.S. GOVERNMENT PUBLISHING OFFICE 

94-907 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                  
        
        
        
        
        
        
        
        
        
        
        
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin Chairman
JOHN McCAIN, Arizona                 THOMAS R. CARPER, Delaware
ROB PORTMAN, Ohio                    CLAIRE McCASKILL, Missouri
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             TAMMY BALDWIN, Wisconsin
MICHAEL B. ENZI, Wyoming             HEIDI HEITKAMP, North Dakota
KELLY AYOTTE, New Hampshire          CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     GARY C. PETERS, Michigan
BEN SASSE, Nebraska

                    Keith B. Ashdown, Staff Director
             David S. Luckey, Director of Homeland Security
       William H.W. McKenna, Chief Counsel for Homeland Security
          Gabriel S. Sudduth, Senior Professional Staff Member
              Gabrielle A. Batkin. Minority Staff Director
           John P. Kilvington, Minority Deputy Staff Director
     Stephen R. Vina, Minority Chief Counsel for Homeland Security
Susan B. Corbin, Minority U.S. Department of Homeland Security Detailee
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator Carper...............................................     2
    Senator McCain...............................................     9
    Senator Ernst................................................    12
    Senator Sasse................................................    14
    Senator McCaskill............................................    16
    Senator Peters...............................................    19
    Senator Heitkamp.............................................    21
    Senator Ayotte...............................................    23
    Senator Lankford.............................................    25
    Senator Paul.................................................    28
Prepared statements:
    Senator Johnson..............................................    33
    Senator Carper...............................................    35

                               WITNESSES
                       Wednesday, April 29, 2015

Hon. Jeh C. Johnson, Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     3
    Prepared statement...........................................    37

                                APPENDIX

Chart referenced by Senator Johnson..............................    51
Statement from the American Immigration Council..................    53
Statement from the National Treasury Employees Union.............    58
Response to post-hearing questions submitted by Secretary Johnson    62
 
 THE HOMELAND SECURITY DEPARTMENT'S BUDGET SUBMISSION FOR FISCAL YEAR 
                                  2016

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:03 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, McCain, Paul, Lankford, Ayotte, 
Ernst, Sasse, Carper, McCaskill, Heitkamp, Booker, and Peters.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order. We want to welcome the Secretary of the Department of 
Homeland Security (DHS), Mr. Jeh Johnson. Thank you for 
appearing, Mr. Secretary, and for your service to this country. 
I know this is a really big job, and I know you are working 
hard to succeed in your mission, which is basically 
encapsulated in your mission statement: ``The vision of 
homeland security is to ensure a homeland that is safe, secure, 
and resilient against terrorism and other hazards.''
    It is interesting because, working with Senator Carper 
here, we also developed a mission statement for this Committee. 
It sounds pretty similar. Ours is pretty simple. It says: ``To 
enhance the economic and national security of America.'' And, 
we really have two Committees in one here: Homeland Security on 
one side and Governmental Affairs, like the House Oversight and 
Government Reform Committee.
    When we developed that mission statement, we also developed 
a set of priorities which also is very close to your set of 
priorities. Your Department's core missions are to prevent 
terrorism, enhance security, secure and manage our borders, 
enforce and administering our immigration laws, safeguard and 
secure cyberspace, and ensure resilience to disasters. The 
priorities we set were: border security; cybersecurity; 
protecting our critical infrastructure, including the 
electrical grid; combating violent extremism; and the fifth 
priority--and hopefully this has your support--is we really are 
dedicated to doing everything we can as a Committee to help you 
succeed in your mission. And I think we finally got Russ Deyo 
confirmed. That is certainly one of the things we can do as a 
Committee, is to make sure that you can staff your Department.
    I do have an opening statement that, without objection, I 
would like to enter into the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    We do have a hard break here for the address to the Joint 
Session of Congress by the Prime Minister of Japan, so without 
further ado, I will turn it over to our Ranking Member, and 
just realize for all Members, we are going to have to have a 
hard break here, somewhere between 10:20 and 10:30.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman.
    Mr. Secretary, great to see you. Thanks for your service 
and the leadership that you are providing. We are grateful to 
the Chairman and all the Members of our Committee here 
encouraged the Republican and Democratic leadership in the 
Senate to move the nomination of Russ Deyo. We think he will be 
a great addition to your team. I am glad that you recruited 
him, and I am glad that he is on the payroll. I hope we can 
replicate that success with the President's nomination of Vice 
Admiral Peter Neffenger as our next Administrator for the 
Transportation Security Administration (TSA), a critically 
important position. With John Pistole, he has a tough act to 
follow, as you know, but I think you picked a really good 
candidate. So we are going to do our best to move him quickly.
    As we know, the President has requested a little more than 
$41 billion dollars in discretionary funding for the Department 
of Homeland Security. For the first time in several years, we 
are talking about an increase in discretionary spending over 
the previous year. And I support the President's budget request 
for DHS and am pleased that he has recognized the need to 
provide the Department with an increase in funds. I believe it 
is truly needed if we expect, Mr. Secretary, for you and your 
team to effectively and efficiently carry out the many vital 
missions that you have.
    For example, this budget request makes a sizable 
investment--I think it is over $800 million dollars--in 
cybersecurity, and these funds will help DHS to better secure 
our financial institutions, our electric grid, as well as many 
Federal agencies from cyber attacks.
    It also includes our recent investments in border security. 
This year, for example, the President is requesting roughly 
$845 million more than last year for Customs and Border 
Protection (CBP). This funding would maintain the current 
record level of staffing for the Border Patrol and make 
targeted investments in force multiplying technology and 
equipment. For our colleagues who are eager to pass a border 
security bill, I respectfully suggest that supporting the 
President's budget request is a very good place to start.
    I was also very encouraged to see a proposed increase in 
funding for the ongoing consolidation of the Department's 
Headquarters at St. Elizabeths. Completing this project will 
ultimately save the taxpayer more than $1 billion dollars over 
the next 30 years by cutting down the number of costly leases 
that DHS has all over this town. Research that my staff and I 
have done indicates that funding the DHS project will not only 
improve operations but it will also improve employee morale at 
DHS.
    All of these needed investments and many more, however, may 
disappear if DHS is required to absorb the deep funding cuts 
proposed by our colleagues in the House. I understand the House 
has just established its high mark for DHS discretionary 
spending in fiscal year (FY) 2016 at a little more than $39 
billion. That is $350 million less than the Department is 
working with this year, and it is almost $2 billion dollars 
less than what the President has proposed. Cuts this large 
could hurt our security and stall many initiatives at the 
Department. The threats we face as a country are just too great 
and too complex to fund DHS below what it received in 2015, and 
even below what was received in 2014.
    I understand some of our colleagues are willing to spare 
the Department of Defense (DOD) from cuts and even to increase 
defense spending. While defense spending is certainly 
important--we know it is--we must remember that the Department 
of Homeland Security is also a vital part of our national 
security efforts. We need to work harder together to find a 
fair and responsible solution for the budget challenges facing 
all of our essential government agencies. I look forward to 
hearing from the Secretary about the impacts that budget cuts 
considered in the House would have on our security, as well as 
the potential impact of sequestration on DHS, should it kick 
in.
    In closing, again, we want to salute the brave men and 
women that you lead in the Department and thank them for all 
they do to keep us safe. Their work is important. We think that 
we are making progress. Thank you so much. Thanks for joining 
us and for your leadership.
    Chairman Johnson. Thank you, Senator Carper.
    It is the tradition of this Committee to swear in 
witnesses, so if you would please rise and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary Johnson. I do.
    Chairman Johnson. Thank you.
    Secretary Jeh Johnson is the fourth Secretary of Homeland 
Security. Prior to joining DHS, Secretary Johnson served as 
General Counsel for the Department of Defense, where he was 
part of the senior management team and led the more than 10,000 
military and civilian lawyers across the Department. Secretary 
Johnson's career has included extensive service in national 
security, law enforcement, and as an attorney in private 
corporate law practice. Secretary Johnson.

   TESTIMONY OF THE HON. JEH C. JOHNSON,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Johnson. Thank you, Mr. Chairman. You have my 
prepared statement. I will not read it. I will say one or two 
things.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Johnson appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    One, I appreciate the leadership that many Members of this 
Committee in particular showed in getting us a fully funded DHS 
for FY 2015. I believe that the FY 2016 budget submission is a 
strong submission that funds our vital homeland security 
missions.
    I would like the Committee to know that this year in 
particular I have made management reform one of my New Year's 
resolutions and top priorities to make for a more efficient and 
effective Department of Homeland Security.
    I am very pleased at the support we have received from this 
Committee in particular in filling the vacancies in DHS. We 
have had 12 Senate-confirmed Presidential appointments to the 
Department, including myself, since December 2013, the last one 
being our Under Secretary for Management, Russ Deyo. I hope 
that the Senate will move quickly on the nomination for our new 
TSA Administrator, Vice Admiral Pete Neffenger.
    As Members of the Committee know, we have moved forward 
with our Unity of Effort initiative. We have realigned a number 
of major headquarters functions. We are working to get off the 
Government Accountability Office (GAO) high-risk list, and, 
indeed, GAO has singled DHS out as a model for how to resolve 
all the issues that DHS has. We have moved forward on 
acquisition reform, and we are addressing aggressively the 
various personnel issues in terms of transparency, hiring, 
promotion opportunities that a number of Members of this 
Committee have written to me about. So we are moving forward on 
a number of fronts there, and I will be pleased to answer 
questions about our different missions.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Mr. Secretary. We like short 
and sweet.
    I will start out with the questioning here. Let us start, 
because I am getting these questions all the time. We had the 
gyrocopter incident, and I do not want to get into any kind of 
details other than to talk about the penalties or right now the 
crimes, the felony and the misdemeanor that Mr. Doug Hughes is 
being charged with. And to what extent do you believe that is a 
deterrent or not a deterrent? And is this Administration at all 
taking a look at strengthening those penalties?
    As I am aware, he is being charged with operating an 
unlicensed aircraft. That is a felony with a penalty of up to 3 
years' imprisonment. And the violation of the airspace is a 
misdemeanor with only a 1-year potential penalty. I think I 
have that correct, but to me that is completely inadequate 
based on the extent that Mr. Hughes put other lives in 
jeopardy. I have stated repeatedly that Mr. Hughes is very 
lucky to be alive, and anybody else that is contemplating such 
a stunt should realize that Mr. Hughes is very lucky to be 
alive, and I would just like to have your comment on that and 
what we can do to deter future actions such as that.
    Secretary Johnson. Mr. Chairman, unauthorized intrusions 
into the airspace of the National Capital Region I think is 
something that, in terms of the criminal penalties, we ought to 
look very seriously at enhancing. Fence jumping at the White 
House in the absence of any aggravating factors is also just a 
misdemeanor. And I believe it is something we should seriously 
look at. It constitutes a diversion of significant government 
resources to address the particular incident. It constitutes a 
threat to public safety, not just to the intruder but to those 
on the ground. And I believe that as a deterrent, we should 
also consider looking at enhancing the penalties for those 
types of offenses.
    Chairman Johnson. I will certainly support you in those 
efforts.
    Let us hop over to border security. That is a top priority 
of your Department as well as of this Committee. We have held 
multiple hearings, roundtables, and if we can put up the chart 
of the current situation, the year-to-date figures of 
unaccompanied children. I realize we are not at the full crisis 
levels we were last year, but we are still far higher than we 
were, for example, in 2011 or even the beginning of 2012 when 
President Obama announced the Deferred Action on Childhood 
Arrivals.
    It is interesting to note that in 2005 we had a similar 
surge from illegal immigrants coming in from Brazil, and 
according to a news report, an article that was published in 
September 2005, the number of illegal immigrants coming from 
Brazil was 3 times higher than previous years, and it was 
exceeding 30,000. So Secretary Michael Chertoff employed an 
initiative called ``Operation Texas Hold 'Em,'' and he said 
that, ``The word spreads surprisingly swiftly. Within its first 
30 days, the operation had already begun to deter illegal 
crossings by Brazilians. In fact, the number of Brazilians 
apprehended dropped by 50 percent. After 60 days, the rate of 
Brazilian illegal immigration through this sector was down 90 
percent and is still significantly depressed all across the 
border. In short, we learned that a concentrated effort of 
removal can actually discourage illegal entries by non-Mexicans 
on the Southwest border.''
    The facts were that Brazilians illegally entering the 
United States dropped from 31,063 in 2005 to 1,460 in 2006.
    Now, I really want to talk about what the policies have 
been, and, again, it is better than it was last year, but we 
have not even begun to solve this problem. Or we have maybe 
begun to solve it, but certainly not to anybody's satisfaction.
    Can you tell us, Mr. Secretary, how many of the children 
that arrived last year--and that number was, I believe, over 
51,000? Is that a correct figure? How many of those children 
have been returned to act as a deterrent?
    Secretary Johnson. Well, Mr. Chairman, the unaccompanied 
alien children (UACs) who came into the country in FY 2014 are 
in removal proceedings. Those proceedings, particularly when 
they assert asylum claims, tend to be pretty time-consuming. We 
have prioritized those cases to put them at the top of the 
stack. But I suspect that the number of those actually sent 
back at this point is nowhere near the 51,000 that you have 
cited.
    Chairman Johnson. It is extremely small, isn't it? 
Somewhere, less than 5 percent, somewhere in the 2-percent 
range, 2 or 3 percent?
    Secretary Johnson. Because of the time it takes to go 
through a deportation proceeding of a minor who is asserting an 
asylum claim, it is, I am sure, nowhere near 51,000.
    Chairman Johnson. The information I have is that the 
current court dates set for those notices to appear for a court 
date currently are in the year 2019. Is that pretty accurate?
    Secretary Johnson. I do not know that to be true. I do know 
that the Department of Justice (DOJ) along with our immigration 
enforcement attorneys prioritized those cases to put them at 
the top of the stack. So I do know that. That was a decision we 
made last summer.
    Senator McCain. So he has no idea.
    Chairman Johnson. As we are trying to grapple with a border 
that is not secure--and, by the way, that was our first 
hearing. We had four witnesses. There was no planning between 
witnesses--very strongly in their written testimony made the 
point that the border is not secure. We have talked about the 
drug cartels, transnational criminal organizations, the 
potential nexus with Islamic terror. This is an enormous 
problem.
    But, I keep coming back to the fact of what do we have in 
our own laws that incentivizes illegal immigration. I think one 
of those is, again, we have this lengthy adjudication process 
for illegal immigrants coming here from countries other than 
Mexico and Canada. Is that a policy that this Administration 
would be willing to take a look at so that we can be as 
effective as we were in addressing the Brazilian surge as we 
take a look at what is happening with the people coming here 
from Central America.
    Secretary Johnson. Well, you mentioned the Brazilian surge 
and Secretary Chertoff. Last year, when these numbers started 
to go up, I brought in Secretary Chertoff and consulted him 
about the Brazilian surge, and he told me basically what you 
said, that it is a very market-sensitive environment, and you 
have to show the population in Central America that you are 
sending people back.
    And so we dramatically reduced the repatriation time for 
the adults from something like 33 down to 4 days. We ramped up 
the flights. We established expanded family unit detention 
space. A lot of people did not like that, but we did it, and I 
was very public about that. And we embarked on a public 
messaging campaign, and we also cracked down on the smuggling 
organizations.
    So we did a number of things that in one way or another 
contributed to a pretty dramatic dropoff in the UAC numbers and 
in the overall numbers, beginning June 10, 2014. That was the 
peak, and then it started to decline. And the numbers have 
remained low ever since, but I am interested in keeping those 
numbers low and making them lower, which is reflected in our 
budget submission.
    Without a doubt the process for adjudicating an asylum 
claim in this country is a time-consuming one. It is more 
complex and more complicated when you are dealing with a minor. 
And it is something that could be made more efficient. Part of 
our budget submission is to add enforcement attorneys to the 
process so that we can devote more resources to it, and I know 
DOJ is interested in doing that as well with the judges.
    Chairman Johnson. OK. Well, just real quickly, in closing, 
when you take a look at that chart,\1\ I would dispute the fact 
that the numbers are low. They are lower than they were, but 
they are still not low. And I have a number of questions, more 
detailed budget questions, that we will submit for the record. 
But we also have a lot of requests for information from the 
Department. For example, how many children have been returned? 
What are those court dates set? So I hope and I encourage the 
Department to work with us very closely to answer those 
questions, because without information, you simply have no 
chance of starting to solve these problems. So I want to work 
closely with you to get that information so we can take that 
first step that solving any problem is admitting we have it. 
Senator Carper.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Secretary, I am not an expert on Brazil, but my 
recollection was that the Brazilian economy was not especially 
robust in the years around 2005, and they had an incredible 
surge of their own, an economic surge that helped convince 
people who had been ready to bail out on their country and come 
to this country to say, well, maybe they should just stay at 
home. And I think there might be a lesson there, just as there 
is a lesson from Plan Colombia. There might be a lesson if we 
want to slow and reduce the flow of unaccompanied minors, 
families with children. We may want to do something to help 
facilitate their economic recovery in Honduras, Guatemala, and 
El Salvador.
    We had an excellent meeting with General Kelly the other 
day, who has explored with us his views on that area, and I 
would just ask your reaction to that thought.
    Secretary Johnson. I do believe that part of addressing the 
overall phenomenon is addressing the push factors in the 
Central American countries. I know that in our FY 2016 budget 
request--I think this is through the State Department--there is 
something like $1 billion requested for the three Central 
American countries to deal with the underlying issues there 
around poverty and violence. And so very definitely the push 
factors contribute to illegal migration from Central America. 
it is the motivator for them leaving the country in the first 
place.
    Senator Carper. I want to go back to the rightful concerns 
raised by our Chairman about the flow of particularly younger 
people into this country. One of the things we have endeavored 
to do, as my colleagues know, is to change the messaging so 
that instead of the coyotes being able to message the families 
in Honduras, Guatemala, and El Salvador that they can, for a 
couple thousand dollars, get their kids up to the United States 
and they will have legal status, quite a different message has 
been spread. Would you explain just a little bit about maybe 
how the messaging has changed over the last year to the folks 
in those three countries?
    Secretary Johnson. Well, we were getting anecdotal evidence 
from talking to the migrants that the coyotes were putting out 
the message that there were ``permisos''--free passes--in the 
United States if you make it across the border. And that was an 
inducement to pay the coyotes whatever the fee is, $6,000, 
$8,000. It is like a sale that expires at the end of the week 
and you have to take advantage of it now.
    We put out a pretty aggressive public messaging campaign, 
some of which came under my own name, that the journey is 
dangerous through Mexico, especially for a child; it is 
dangerous to hop on top of a freight train; and that our 
policies are not such that the border is open; and that you 
will be put into a removal proceeding if you come here.
    We believe that that contributed to the downturn in the 
numbers, along with a number of other factors, and the 
information that we are getting now is that people in Central 
America are no longer being told by the coyotes the story they 
were being told last summer. And they know that our borders, 
given the investments we have made over the last number of 
years, 10, 15 years, have more resources now than they did 
before, and there are still, as the Chairman points out, a 
number who are crossing daily. But the numbers are, in fact, 
lower, and we think that the misimpressions that the coyotes 
put out last summer are not being spread as widely this summer.
    Senator Carper. Good. I want to ask you to just comment on 
the budget request from the President, the level that the House 
appropriators have set discretionary spending for your 
Department. I think the Administration has asked for about $41 
billion.
    Secretary Johnson. 41.2
    Senator Carper. A slight increase from current year 
funding. I think the House appropriators have set the spending 
levels at $39 billion.
    One of the things that you indicated we needed more of was 
attorneys to represent these kids that come here seeking 
asylum, and one of the reasons why it takes----
    Secretary Johnson. Actually, I meant that for the 
immigration enforcement.
    Senator Carper. All right. One of the reasons why it takes 
a while to process these claims and get people moving is 
because we do not sufficiently fund this particular area. So I 
would just ask that we keep that in mind.
    Just talk to us more generally about the $2 billion--how 
you are going to take care of a $2 billion cut if we ultimately 
end up having to accept the House appropriations level of $39 
billion. Where does that money come from, out of what hide, 
what program?
    Secretary Johnson. Well, in my judgment, that would 
represent a significant step backward in our homeland security/
border security efforts. If we have to work with the $39 
billion level, I suspect that the funding for the headquarters 
would be in jeopardy. But I also believe that the additional 
funding we seek for border security, for detention capability, 
for aviation security, for the enhancements we need to make for 
the Secret Service, the hiring of additional Secret Service 
personnel, would be in serious jeopardy.
    Do not forget that there are a number of personnel-related 
costs tied to inflation that we have to fund no matter what. 
And so everything else we would have to take a very hard look 
at, and a lot of our missions are missions that I know Congress 
wants us to fully fund, for border security, aviation security, 
counterterrorism. And so it would be an ugly process to have to 
try to fund the Department at that level.
    Senator Carper. All right. Thank you.
    I mentioned to you before the hearing started that I met 
with Andy Ozment over breakfast this morning from your cyber 
team. We talked about the two bills over in the House on 
cybersecurity information sharing. They have been merged 
together. The House is sending them to us.
    Secretary Johnson. Right.
    Senator Carper. We have a couple of different approaches: a 
bill reported out of the Intel Committee, currently legislation 
that I introduced, in part mirroring what the Administration 
has suggested with respect to information sharing. And we will 
be taking up on the floor--my guess is in May--cybersecurity 
information-sharing legislation in the Senate.
    Any thoughts you have on what we ought to consider and keep 
in mind as we take up or move toward taking up that 
legislation?
    Secretary Johnson. We have some what I will characterize as 
``minor concerns'' about the legislation moving forward. But, 
overall, I think that the two bills are a good piece of work. I 
believe that the McCaul bill, as between the two, is a better 
bill. I think that legislating information sharing between the 
private sector and the government is the overarching objective 
that we ought to try to achieve. I think that the single 
portal, primary portal concept, setting up DHS as the primary 
portal for information sharing is something we ought to try to 
legislate.
    I believe that limitations on civil and criminal liability 
for those who share information with DHS is something we ought 
to try to legislate as well.
    So, overall, I am very pleased to see that Congress is 
active in this area, and I support the idea of legislating 
cybersecurity. I think it is something we really need to do.
    Senator Carper. Good. We look forward to working with you 
on that. Thank you.
    Chairman Johnson. Senator McCain.

              OPENING STATEMENT OF SENATOR MCCAIN

    Senator McCain. Mr. Secretary, thank you for being here. Do 
you believe that the President's Executive Orders (EO) on 
immigration are constitutional?
    Secretary Johnson. Yes, I do.
    Senator McCain. You do. You said the numbers of these 
apprehensions are down, and that is good news? Down from 19,000 
to 9,000, if these numbers are accurate? That is really good 
news?
    Secretary Johnson. The numbers are down from 2014 as well 
as 2013. If you are focused on the overall numbers, those 
numbers are lower than they have been in a couple of years. But 
I am not suggesting----
    Senator McCain. Than they have been in a couple of years?
    Secretary Johnson [continuing]. This constitutes victory.
    Senator McCain. In 2013, there were 7,000, according to 
this. So it is just a little lower than last year--or somewhat 
lower than last year and higher than any other year.
    Look, we are not going to argue, but the fact is you are 
being disingenuous when you say that the things are really a 
lot better. Nine thousand eight hundred is not satisfactory to 
anybody in my State.
    So do you know the percentage of the number of young people 
who have met their court dates for appearances once they have 
showed up on our border? Do you know the percentage that have 
showed up for the dates they are supposed to?
    Secretary Johnson. If you are referring to unaccompanied 
children----
    Senator McCain. Yes.
    Secretary Johnson [continuing]. I do not know the number 
offhand, sir.
    Senator McCain. I wonder why you do not. I wonder why you 
would not know that number. I think the American people and 
this Committee need to know that, because you and I know that 
the percentage is very small, somewhere around 10 or 20 
percent. So the intent of the law was that children were 
supposed to be able to come to our border in order to get a 
fair and unbiased judgment about their need for asylum in the 
United States. So the law is being perverted. When you only 
have 10 to 15 or 20 percent of the children who show up on our 
border who show up for their court date, then the law is not 
being implemented, because the intent was to give them the 
benefit of the judicial system here in the United States, and 
they are not showing up for it. So obviously the law is not 
being implemented in the way that it was intended.
    Are you aware of the percentage of the young women who are 
brought by these coyotes--and all of them now are brought by 
coyotes for thousands of dollars. I do not think anyone would 
disagree with that. Do you know the percentage of young women 
allegedly who are raped on the way?
    Secretary Johnson. I have not seen a percentage of those 
who have been sexually assaulted.
    Senator McCain. You have heard that there is a sizable 
number.
    Secretary Johnson. I know it is a sizable number because 
that----
    Senator McCain. Doesn't that concern you, that a sizable 
number of young women are raped on their way up to this 
country?
    Secretary Johnson. Of course it does, Senator. Of course it 
does.
    Senator McCain. Then why do you support----
    Secretary Johnson. I have spoken to----
    Senator McCain. Well, then, why do you support legislation 
and a policy that encourages such a thing then if you do not 
like it?
    Secretary Johnson. Well, Senator, I think that I support 
and encourage and am working toward a policy that discourages 
illegal migration from Central America, particularly among 
women and children.
    Senator McCain. Well, certainly it does not discourage 
illegal migration if we have a law that says that if they show 
up on our border, they can stay here and only 10 to 20 percent 
of them are meeting their court dates.
    Secretary Johnson. Senator, I have been in enough 
processing centers to talk to pregnant 15-year-olds to be 
utterly disturbed and upset about that. Do not mistake----
    Senator McCain. Well, then you would think----
    Secretary Johnson. Please do not misunderstand that.
    Senator McCain [continuing]. If you were utterly upset and 
disturbed about it, then you would think you would want to 
bring a halt to it. And the halt to it is to set up consulates 
and expand our embassy capabilities there to handle these cases 
there.
    Secretary Johnson. Well, that is exactly what we have done.
    Senator McCain. Rather than have them subjected to the 
cruelties of the coyotes, and then once they get here, they do 
not show up for their court dates.
    Secretary Johnson. That is exactly what we did, sir.
    Senator McCain. You did what?
    Secretary Johnson. We set up in-country processing in 
Guatemala, Honduras, and El Salvador.
    Senator McCain. Then why are 9,802 showing up at our 
border?
    Secretary Johnson. Well, the number is considerably lower 
than what it was last year----
    Senator McCain. That is acceptable, 9,800 is considerably 
lower? That is good news?
    Secretary Johnson. I do not consider that good news. I do 
know that----
    Senator McCain. Well, the way you are portraying it, you 
act like it is. And it is not. And what is happening to these 
young people, including young boys as well as women, is 
something that you would want to bring to an abrupt halt. 
Instead we see this continued flow and treatment of these young 
people that is beyond cruelty. And so you are happy with the 
fact that there has been a reduction, and there are only nine 
thousand----
    Secretary Johnson. You are mischaracterizing what I have 
said, sir. May I be allowed to comment?
    Senator McCain. Sure.
    Secretary Johnson. The numbers are considerably lower in 
every sector, including the State of Arizona. I have said 
repeatedly in my public statements that I am not declaring, 
``Mission accomplished.'' We need to strengthen border 
security.
    In reaction to last summer, we did a number of things to 
reduce the repatriation time, to surge resources, to establish 
family unit detention capability, much to the objection of a 
number of advocacy groups. I am being sued in the city of 
Washington, D.C., for that, but we did it because I thought it 
was necessary and appropriate.
    We have done a number of things to prioritize prosecuting 
the coyotes. We have prioritized the deportations of the kids, 
though it is a time-consuming process. So I do not want there 
to be any misunderstanding that, in reaction to last summer, we 
have done a number of things that I want to maintain on the 
Southern border.
    Senator McCain. Of course, there has been no reduction in 
the activities of the coyotes. How many of the coyotes you say 
you have captured and prosecuted?
    Secretary Johnson. It is in the statement I released last 
week. The number is right here. I can take the time to look for 
it, but it is in this statement, sir.
    Senator McCain. So you have really made a dent in the 
activities of the coyotes? Of course not. So the fact is that 
we now have still a larger number, according to these numbers, 
of unaccompanied children, larger than it has ever been, with 
the exception of last year, and you are acting like that is 
some kind of achievement.
    I will not even talk about, because my time is up, General 
John Kelly's assessment on our border, who said, ``Terrorist 
organizations could seek to leverage those same smuggling 
routes to move operatives with intent to cause grave harm to 
our citizens or even bring weapons of mass destruction into the 
United States.'' That was General Kelly, the Commander of 
Southern Command (USSOUTHCOM).
    So, Secretary Johnson, I do not see how you could sit there 
and act like you have achieved something when only 10 to 20 
percent of the young people who have come to this country 
actually show up to plead their case to be able to remain in 
this country. And as far as I know, the information that I 
have, the activities of the coyotes have certainly not been 
impacted by any action that you have taken since they do not--
so I am deeply disturbed about the fact that my Southern border 
of my State is still not secure, that we are still seeing a 
record number, with the exception of one year, of unaccompanied 
children showing up at our borders who are being subjected to 
unspeakable things on the way up, which does not seem to enter 
into your calculations.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator McCain. Senator Ernst.

               OPENING STATEMENT OF SENATOR ERNST

    Senator Ernst. Thank you, Mr. Chairman. Thank you, 
Secretary Johnson, for being here today. I do appreciate the 
fact that you are working with your Department to streamline 
it, make it more efficient, and more effective for our 
citizens. So thank you for doing that and for your efforts.
    I do want to reference Senator McCain, and he had asked 
about President Obama's Executive actions on immigration. I 
would just like to know the impact and how you are implementing 
that departmentwide. What actions have been taken? What are the 
implications to your Department?
    Secretary Johnson. Well, there were nine Executive actions 
that I signed out on November 20 that the President announced. 
One of them is Deferred Action for Parenthood Arrivals (DAPA) 
and the expansion of the criteria for Deferred Action for 
Childhood Arrivals (DACA). That is the subject of the Texas 
litigation.
    There are a number of other things that we did. We directed 
the Southern Border Campaign Strategy, which is bringing to 
bear on the Southern border all the resources of my Department 
DHS-wide--Citizenship and Immigration Services (CIS), the 
Immigration and Customs Enforcement (ICE), CBP. Up until now we 
have been too stovepiped in the history of my Department. So 
one of the things we directed was the Southern Border Campaign 
Strategy.
    We also directed pay reform for our immigration enforcement 
personnel. They are on a pay scale that tops them out at GS-9, 
and so we want to get them to GS-13.
    We announced the end of the Secure Communities Program. A 
lot of people have questions about why the removal numbers are 
lower this year than in years prior. One of the big reasons, if 
not the big reason for that, is because so many State and local 
jurisdictions were passing laws and ordinances limiting their 
ability to cooperate with us in the Secure Communities Program, 
so that it made it harder for us to get at the criminals that 
we want to deport. And so we as part of our Executive actions 
created something called a ``Priority Enforcement Program,'' 
which I believe resolves the legal and political controversy of 
the old Secure Communities Program. And the outgrowth of that 
is that I and other senior leaders of the Department are now 
going around the country talking to Mayors and Governors who 
have passed these laws and ordinances to say, ``We have a new 
program, and we want you to cooperate with us in our 
enforcement efforts to get at the convicted criminals.'' And so 
far we have been getting a pretty good reception to that, but 
it is an effort at public safety. It is all for the purpose of 
public safety and prioritizing criminals.
    Refocusing our efforts on prioritizing criminals is another 
one of our Executive actions, and then there are some others 
that we also issued out to facilitate issuing green cards in 
the high-tech sector and a few others.
    But on the immigration enforcement side, on the CIS side, 
we are doing a number of things to try to reform the system.
    Senator Ernst. And the impact to the DHS budget as far as 
the Executive actions are concerned departmentwide, I am 
assuming that has created an increase in the budget.
    Secretary Johnson. Well, a lot of our policies, our new 
policies, are, in fact, reflected in the budget submission. So 
we are prioritizing border security and that is reflected in 
our budget submission. Detention space is expensive, and we 
want to expand it. It is expensive.
    More immigration enforcement attorneys to get at 
enforcement against threats to public safety is also reflected 
in the request for added numbers of attorneys there. So those 
are two such examples.
    Senator Ernst. Great, and great segue, because you 
mentioned that detention is expensive. What about alternatives 
to detention for those that are low risk? I know that the use 
of GPS-enabled ankle bracelets has been discussed in the past. 
That is just one example. And it runs a lot less, of course, 
than detaining somebody in a facility or detention center. And 
can you just visit a little bit or inform us, is the Department 
moving toward those types of alternatives? Thoughts on that? 
Just finding alternatives that would work for us that are less 
costly to our taxpayers.
    Secretary Johnson. The answer is yes. There is a large 
single item in our budget submission for alternatives to 
detention. I believe it is larger than in years prior. It is 
something that we would like to move toward for those that are 
considered not to be a risk of flight. And as you pointed out, 
there are some pretty sophisticated ways, through ankle 
bracelets and otherwise, to track these individuals. Ankle 
bracelets have been around for a while now, from my days as a 
prosecutor 25 years ago. And so there is a separate line item 
for alternatives to detention, and it has increased, as I 
recall, from years prior because it is something we would like 
to do where we think it is appropriate.
    Senator Ernst. OK. So, some pros there where it is more 
cost-effective. Are there any disadvantages to using that type 
of system that we might not be aware of?
    Secretary Johnson. Well, Senator McCain is right in that 
the number of people who report for their deportation court 
dates is not where we would like it to be. So it should be 
higher, and my hope is that through a good, robust alternatives 
to detention program, we can get that number up. We can track 
these individuals better.
    Detention is appropriate in many circumstances, in my 
judgment, but it is not right in every case, and it is usually 
expensive.
    Senator Ernst. OK. Well, I appreciate it. My time is 
expiring. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Ernst. Senator Sasse.

               OPENING STATEMENT OF SENATOR SASSE

    Senator Sasse. Thank you, Mr. Chairman. Thank you, 
Secretary Johnson, for being here.
    DHS was created in large part to be the Nation's first line 
of defense against domestic terror attacks, and obviously 
nuclear weapons are our greatest threat. In 2012, the 
Department announced its fundamental shift from a resource-
based to a risk-based approach, and I wonder if you could just 
talk us through two or three of the concrete ways border 
security looks different because of the new risk-based approach 
and what kind of metrics you use, please.
    Secretary Johnson. Sure. The best example of a risk-based 
strategy most visible to the American public is TSA. We have, 
for example, TSA Precheck. TSA Precheck is an illustration of a 
risk-based strategy in that through a background check you get 
a certain number of people that you know more about that go 
through the shorter lines. There are also determinations made 
at the airport about who can go through the shorter line so 
that we can focus more of our resources on the population we 
know less about, the riskier population. And I think it is 
pretty effective. It is popular with the American public. The 
lines move quicker. But we also are seizing more weapons. Last 
year, we seized more weapons in carry-on luggage at airports 
than in the years prior. A lot of them, something like 80 
percent of them, were loaded.
    Border security between the ports also is moving toward a 
risk-based approach, more surveillance, more technology. That 
enables us to monitor where the migrants are moving, so we 
focus on those areas. They are pretty discrete. For example, 
last summer, in the Rio Grande Valley, a lot of the kids were 
all migrating to a very discrete point in the Rio Grande 
Valley, and we were able to see that through our surveillance 
and detection capability.
    In terms of detecting any potential nuclear threats or 
threats at ports, we now have very sophisticated scanning 
devices, and there are sophisticated judgments made based off 
of manifests and other indicators about what should be 
considered higher risk and, therefore, subject to higher levels 
of scrutiny. And so that is the overall direction we are 
headed. I think it is an efficient and effective way at border 
security at the ports, in the airports, on land.
    I will note as an aside that I have your letter.
    Senator Sasse. Thank you.
    Secretary Johnson. It is a very thoughtful, detailed 
letter. I would like to endeavor to take a number of those 
questions for the record and get you some thoughtful responses.
    Senator Sasse. That would be great. Thanks. Could you just 
give us a ballpark sense of when we would have a response? I 
know we just sent the letter 2 days ago, so I am not pushing 
yet, but curious as to how long you think a response will take.
    Secretary Johnson. Probably about a week, I think. I just 
made my staff gasp.
    Senator Sasse. We will take it. I actually saw the gasping. 
It was on both your right and your left.
    Secretary Johnson. As you know, Senator, I think in the 
legal profession, my favorite saying is: ``I do not need more 
time. I just need a deadline.''
    Senator Sasse. Fair enough. The Department has argued that 
a 100-percent operational control objective is imprudent, and I 
understand some of the argument for why that is because you 
would be devoting certain kinds of resources in places that 
might be lower-risk threats, and if you build a matrix of how 
to think about where we want to make those investments, what we 
are trying to do is to deter catastrophic events before all 
else.
    Could you tell us whether or not you think you have 100-
percent situational awareness of the border?
    Secretary Johnson. We are certainly moving in that 
direction. Every time I have looked at this exact issue, on the 
Southern border in particular--and I think I have seen analysis 
for the Northern border as well--our situational awareness is 
getting better. But it gets better by virtue of surveillance 
technology, surveillance capability. And there is a lot of that 
reflected in our budget request--more mobile surveillance, more 
aerial surveillance--and the more we have, the more situational 
awareness we have.
    Senator Sasse. So would you say that it is the Department's 
objective to have 100-percent situational awareness?
    Secretary Johnson. The Department's objective is certainly 
to have 100-percent situational awareness in at least certain 
sectors. I do not know whether that would be absolutely true 
for every single sector of the border. In general, it ought to 
be. But the immediate term, I know that the percentage of 
border land for which we have situational awareness is 
increasing all the time.
    Senator Sasse. Do you think we will have 100-percent 
situational awareness during your tenure?
    Secretary Johnson. During my tenure? Probably not during my 
tenure. My tenure is growing short. I would like it to be over 
at a certain time. I do not know that we will be able to 
achieve that before the end of this administration, if that is 
your question.
    Senator Sasse. It is. And so I think back to the post-9/11 
moment and heading toward the election of November 2004, there 
was great fear that terrorists would seek to exploit the period 
of lame duck status if John Kerry had beat George Bush at that 
point. There was a view that those next 60 to 75 days would be 
particularly precarious. Do you share a view that 
Administration change is a uniquely risky time? And if so, and 
if we are not going to have 100-percent situational awareness, 
who in the Department owns that strategic risk assessment?
    Secretary Johnson. Well, it is principally Customs and 
Border Protection, and I will certainly commit to Congress that 
during a transition period to the next Administration, I do not 
intend to pull back or take my foot off the gas in terms of 
homeland security.
    Senator Sasse. Thank you. I am nearly at time, and I 
appreciate your commitment on my letter, so most of what I 
would like to talk about in these Government Accountability 
Office reports I will leave to a followup to the letter. But I 
would like to ask you one particular one here.
    A covert GAO investigation in September looked at how the 
CBP could ``detect and interdict''--their words--nuclear 
materials at 655 ports and checkpoints. While most of the 
report was classified, it did find in a public way differences 
in the rates of success for interdicting smuggled nuclear and 
radiological materials. In your view, does that mean that CBP 
was unsuccessful at detecting nuclear materials in the GAO 
test?
    Secretary Johnson. Well, I do not know two things. I know 
that we are generally very good at the ability to detect 
nuclear materials at the ports. We have 100-percent scanning at 
the ports. I also know--and I believe this is true--that CBP 
has accepted the recommendations in the GAO report and is 
moving forward on them.
    Senator Sasse. Thank you. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Sasse. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    First, on your budget, there is an awful lot of talk and 
rhetoric about how border security is about national security 
and how important it is in terms of our fight against 
terrorists that you be adequately funded. And I mean this in 
all seriousness. I think you ought to make a request to the 
leadership of the House and the Senate that you be included in 
the overseas contingency operating budget. That is going to be 
used as a form of a slush fund this year. They are upping the 
Overseas Contingency Operations (OCO) fund without--and they 
are not going to pay for it, so it allows them to escape some 
of the angst they have within their party about everything 
being paid for. But, clearly, they are going to try to use that 
to address ongoing budgetary needs of the Defense Department, 
writ large.
    And so I think the time has come, if OCO is going to be 
used in a fairy tale-like fashion to do what should be done in 
the base budget, I would think it would be time for you to 
discuss with the President and the leadership at the Defense 
Department that you have every justified right to be in OCO. If 
we are all going to talk about the border being about our 
defense, then it seems to me we have to make sure you are in 
that slush fund, too, because if you get cut because you are 
not part of the Defense Department, it does not make any sense 
to me.
    Let me go through a summary first. In the Obama 
Administration, has illegal immigration gone up or down?
    Secretary Johnson. Apprehensions, which are an indicator of 
illegal immigration, have gone down over the last 15 years, 
including in the Obama Administration.
    Senator McCaskill. All right. And what about deportations 
in the Obama Administration? Have they gone overall up or down 
to the previous administration?
    Secretary Johnson. They have gone up, and now they are 
going down.
    Senator McCaskill. And DACA does not apply to illegal 
immigrants coming to this country after it was signed.
    Secretary Johnson. That is correct, yes.
    Senator McCaskill. And so the coyotes are lying to these 
families in Central America.
    Secretary Johnson. Yes.
    Senator McCaskill. Is there anything we can do to stop the 
coyotes from lying about what the President's policies are?
    Secretary Johnson. Yes, and I think we have. We put out a 
very aggressive public messaging beginning last summer, 
including statements I have issued in Spanish, that you can see 
posted, for example, at bus stops in Guatemala City.
    Senator McCaskill. So perhaps one of the reasons we are 
seeing a downturn is the coyotes no longer have open space to 
lie about what the policy does and does not do.
    Secretary Johnson. I believe that, yes.
    Senator McCaskill. OK. And while we have seen an increase 
that is now going the other way of these apprehensions of 
unaccompanied children of Honduras, Guatemala, and El Salvador, 
isn't it also true that, besides DACA being announced, the 
homicide rate in Guatemala at the same time period had gone up 
by 20 percent, the homicide rate in El Salvador had gone up by 
50 percent, and that Honduras has the highest murder record in 
the world?
    Secretary Johnson. I know that the levels of poverty and 
violence and the levels of violence in particular are still 
very high, yes.
    Senator McCaskill. So if you are a mother in those 
countries and you have a coyote telling you that you can keep 
your child safe, I just think it is important that that go on 
the record, because this is not about people sitting around and 
making a political calculation in these countries. This is 
about mothers trying to save children. Correct?
    Secretary Johnson. Yes, ma'am.
    Senator McCaskill. OK. Now, on immigration detention--oh, 
and by the way, one of the things I have been yelling about 
since I got here, since the day I got here, even with your 
predecessor, Mr. Chertoff, was when I arrived in the Senate in 
2011, your Department could not tell me how many businesses had 
been prosecuted for knowingly hiring illegal immigrants. And, 
in fact, that has been a huge magnet in this country, that we 
were never going after the businesses that were knowingly 
hiring. Not those who were accidentally hiring, but those who 
we could prove easily. And as a former prosecutor, Secretary 
Johnson, that these cases would not be hard to make if you have 
five people using the same Social Security number.
    Secretary Johnson. Yes.
    Senator McCaskill. That is knowingly.
    Secretary Johnson. Yes.
    Senator McCaskill. And what we were seeing up until a few 
years ago is we would see photo op round-ups of businesses and 
deportations, but no criminal action taken against the 
employer. Can you tell me how many employers as of today we 
have put in prison for knowingly hiring illegal immigrants?
    Secretary Johnson. That is a knowable number. Sitting here, 
I cannot tell you, but I suspect that is a knowable number. And 
the point you are making is one of the reasons why I support 
mandatory E-Verify.
    Senator McCaskill. Well, and that is one of the things I 
think we ought to talk about, is those numbers, because when I 
asked this question of Secretary Chertoff back in 2007, not 
only did he tell me they did not know, the person in charge of 
ICE at the time said they could not even figure it out how many 
had even been arrested. So we were trying to keep track of what 
was going on at the border, but we were keeping no track of, in 
fact, shutting down the magnet, that is, many people in this 
country looking the other way because it was cheap labor and it 
was not a priority to go after the businesses that were not 
playing by the rules, that were unfairly competing with other 
businesses.
    And so I would really appreciate it if you would give this 
Committee a brief of where we are in terms of going after the 
businesses that are knowingly hiring illegal immigrants, which 
is, in fact, against the law.
    Secretary Johnson. I can do that, ma'am.
    Senator McCaskill. Finally, on immigration detention costs, 
I want to echo what my colleague from Iowa said about the costs 
of immigration detention. While I do not agree with the 
statistic that Senator McCain used about who is showing up, we 
do know that when these juveniles have a lawyer and they know 
what is going on, they have had a translator, over 90 percent 
of them are showing up. We do know that. And we know that it is 
costing $300 a day to detain them.
    Are you thinking about, along with ankle bracelets, trying 
to make sure that we have enough lawyers who can speak Spanish, 
who can address these families that are being held so that we 
get a much higher rate of appearance at these hearings?
    Secretary Johnson. Yes. That is something that both the 
Attorney General and I have undertaken to do, and we have 
undertaken to do that with the bar associations as well.
    Senator McCaskill. Well, I would like some kind of 
information on that, because I think if $300 a day--I admit we 
can probably get lawyers for a couple of hours for that. And a 
couple hours might be all it takes for someone to really 
understand what is expected of them, where they have to be when 
and so forth. And I think that might be much cheaper than what 
we are doing now with these detention centers. And my time has 
expired. Thank you, Mr. Chairman.
    Secretary Johnson. Chairman, could I make one brief point 
in response to Senator McCaskill's point about sequestration?
    Chairman Johnson. Sure.
    Secretary Johnson. The Department of Homeland Security, it 
must be remembered, is not just border security. By any means 
possible, I want Congress, I am urging Congress to avoid 
sequestration for my Department. It is border security, it is 
port security, it is aviation security, it is maritime 
security. It is the Secret Service, it is the protection of our 
national leaders, it is cybersecurity. So it is not just border 
security we are talking about here that is in jeopardy if we 
have to function at sequestration levels.
    Senator McCaskill. Make a request for OCO funds. I am 
telling you, it is the Promised Land. [Laughter.]
    Chairman Johnson. Thank you, Mr. Secretary. I do think it 
is important to note, seeing as people are chiming in here, 
that regardless of what DACA actually says, the letter of that 
memorandum, as long as the reality is that if you are a child 
from Central America and you get into this country and 95 to 98 
percent are still in this country and they are staying, that is 
the reality that is going to drive the actions of parents in 
Central America. Again, I think the public relations campaign 
probably has had some kind of effect. But, again, if the 
reality is you get here, your court date is set for 2019--
again, I want that verified. I want to find out what the facts 
are. And that is part of the problem. We do not know the 
information.
    And so that is the first step, that we have to start 
getting better information to find out exactly what is 
happening. But, again, the reality is going to drive action.
    Our next questioner is Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman, and thank you, 
Secretary Johnson, for appearing here today and for your 
testimony.
    I would like to take a moment to ask a little bit about 
infrastructure and staffing at our ports of entry (POEs), an 
issue that you and I have discussed before at some length.
    Secretary Johnson. Yes.
    Senator Peters. As you are well aware, our ports of entry 
are essential for supporting trade and tourism, and how 
efficiently they operate can make or break our competitiveness, 
particularly in Michigan, along an incredibly busy corridor of 
business. We ask the Department of Homeland Security to do two 
things: keep us safe and not slow us down as we cross the 
border, particularly when it comes to just-in-time delivery, 
and agricultural products.
    I offered an amendment to the budget last month, which was 
cosponsored by Chairman Johnson, to create a deficit-neutral 
reserve fund to support increased trade and travel, including 
conducting construction and increased staffing at ports of 
entry, and I am glad that amendment was adopted, and I look 
forward to continuing to work with the Chairman to support the 
economic growth and efficiency at our ports of entry.
    Secretary Johnson, as you saw when you visited Michigan 
last year--we were together in the city of Detroit, and you 
headed up to Port Huron after that meeting--we have two of the 
five busiest land crossing in the country in terms of value of 
shipments in Detroit and Port Huron. These two crossing are 
critical for manufacturers, as I mentioned, for just-in-time 
delivery. Our agricultural sector, which is highly diverse in 
Michigan, requires safe and efficient transport across the 
border. And I appreciate the agreement reached, which you 
worked on with the Canadian Government earlier this year, on 
the New International Trade Crossing which will have Canada 
fund construction of the bridge as well as the customs plaza. 
And I appreciate your commitment to make sure that that plaza 
is fully staffed with CBP personnel. And I look forward to 
seeing that project move forward.
    I also strongly support the preclearance agreement that was 
signed last month between the United States and Canada, which 
will lead to expansion of preclearance locations for all modes 
of transportation. I think this is a very important step in 
realizing another one of the goals of Beyond the Border Action 
Plan that we had in 2011.
    But I do have concerns about the lack of action on another 
item from the Beyond the Border agreement, and that is 
upgrading the physical infrastructure at key border crossings, 
and one of those key border crossings where infrastructure 
improvements have not occurred is in the Blue Water Bridge in 
Port Huron. The Blue Water Bridge desperately needs expansion 
of its customs plaza, and it is ready for construction of that 
plaza. This is the fourth busiest land crossing in the country. 
It is the second busiest border crossing on the Northern 
border. In fact, the city of Port Huron was prepared, had 
assurances from the Federal Government that this plaza was 
going to be expanded and enhanced. They acquired property. They 
demolished property, which had an impact on their tax base as 
they prepared the land for that expansion. And yet the 
expansion has not occurred. The land continues to sit idle, and 
it continues to be an economic drag on Michigan, on the city of 
Port Huron, and it is really unjustified, in my mind. And, 
unfortunately, there is still no funding in this year's budget 
for the Blue Water Bridge plaza modernization.
    Mr. Secretary, could you please tell me and the Committee 
here what the DHS and CBP's plan is for the Blue Water Bridge 
customs plaza expansion?
    Secretary Johnson. Well, as you probably know, Senator, I 
have been to Port Huron myself, in addition to going to 
Detroit.
    Senator Peters. Right.
    Secretary Johnson. And I have seen the backup of tractor-
trailers over the bridge because of the few lanes open for the 
customs capability. I do know that a couple of years ago, or 
maybe even more recently than that, we added some stacking in 
the toll plazas to try to expedite the traffic across the 
bridge. And I have seen what the town did to prepare for the 
expanded customs plaza space. They literally demolished 
buildings to prepare for the expanded area, and for lack of 
funding, we are not able to get there.
    I think that the case for expanded customs capability at 
the Blue Water Bridge is clearly there, and we have to 
prioritize, and I am pleased that we are funding the personnel 
for the new customs plaza in Detroit for the new bridge there. 
That is clearly a very compelling case.
    The Blue Water Bridge is also something that I would like 
to eventually see us expand our capabilities there. You and 
Representative Miller have in a very compelling way made that 
case.
    Senator Peters. Well, how do we proceed to the next step to 
make that a reality? What do we do to move this forward?
    Secretary Johnson. Well, we have to prioritize it, and I 
think that building the customs plaza for the second bridge in 
Detroit has to be a key priority. Ultimately, I do want to get 
to the Blue Water Bridge, and that is something we ought to 
take a look at perhaps in next year's budget.
    Senator Peters. Well, I would appreciate that if we could 
elevate that, sir, because certainly the bridge in Detroit is 
still a few years away. It is not built yet. That will not be 
coming online until 2020, and certainly it is significant. But 
we have a project ready to go, and I do not want to get into a 
situation where it is Port Huron versus Detroit. We have the 
No. 2 busiest border crossing in the country and the No. 4. 
When you have two of the five, we need to do both, and Port 
Huron is ready to go now. So I would certainly appreciate your 
comments and hope that we can push that to the top of the list 
as a border crossing in desperate need, has the volume, is 
ready to go; the land has been cleared. And that can be done, 
and then we focus on Detroit, of course, when 2020 comes, which 
is an incredibly significant infrastructure project, not just 
for Michigan but for the whole country.
    So I appreciate your efforts on that. I appreciate you 
coming out to Michigan, and I appreciate your comments today 
that you would like to make that a priority in next year's 
budget. Thank you.
    Chairman Johnson. Thank you, Senator Peters. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    A couple questions. First off, on 100-percent situational 
awareness, obviously that would involve not only the Southern 
border but also the Northern border, and the Deputy Secretary 
was out and spent a couple days with us on the Northern border. 
Grateful for the visit. He did a great job there.
    Has the Department ever prepared a budget or prepared a 
plan that would give you 100-percent situational awareness?
    Secretary Johnson. Senator, I do not know the answer to 
that question. Let me look at that.
    Senator Heitkamp. I think that when we are talking about 
it, I think all of us, every person in this country, probably 
wishes for 100-percent situational awareness. And my concern on 
the border has been, as we have beefed up and amped up the 
security and the awareness at the ports of entry and within 
distance of the ports of entry, you are pushing a lot of that 
traffic to rural America that is ill equipped to handle it, 
especially the first responders, because they literally are 40, 
50 minutes away from a 911 call in many places in my States, 
and I have spent a lot of time on the Southern border and have 
seen it there.
    And so I would like to see a budget and a strategy for 100-
percent situational awareness on the border, and until we have 
that, I do not think, this is just pie in the sky, and we are 
punting back and forth. Let us try and kind of find out what 
the numbers are, do the cost-benefit on it, figure out if there 
is a way to resource it so that we can actually get it 
accomplished.
    My other concern has been for firefighters. Obviously, with 
the situation of crude oil on the rail and trains presenting 
some new challenges, especially for rural fire departments, we 
have paid very close attention to this. The President's budget 
requested about $670 million for firefighter assistance grants. 
In North Dakota, we are retooling and preparing for the new 
challenges.
    Your reduction of $10 million in both programs for rural 
assistance may not sound like a lot of money in real dollars, 
but for those rural fire departments, it is a huge opportunity. 
I would like you to just tell me what the strategy is to have a 
country that has a vibrant network of first responders as we 
lose more and more volunteers and as the funding for those 
rural fire departments becomes even more and more difficult and 
critical. Why would you guys suggest less resources for 
firefighters?
    Secretary Johnson. Well, obviously, firefighters as first 
responders are key. Senator, I think you made a reference to 
rail oil spills earlier. I actually read your bill and will 
have some thoughts on that.
    We provide, between State and Urban Areas Security 
Initiative (UASI) grants, something like $2.2 billion a year 
for various different things, including firefighters. In some 
jurisdictions, we are helping to pay the overtime for 
firefighters.
    Senator Heitkamp. I would like you to address the rural 
component of that. We have firefighters who tell us, volunteer 
chiefs, who spend 200, 300 hours filling out grant 
applications, to get rejected because they have not done it 
right or to basically get a very small amount of money. And so 
we are obviously very concerned about this in rural America.
    Secretary Johnson. Well, I do know that we are in a 
position to help somebody with the application process. I also 
know that I have encouraged my staff--and I have not seen this 
in your State, ma'am, but I do know that there are other 
jurisdictions where the application was not very well filled 
out, but I said, folks, try to look past that and let us look 
at the real need here. And so I do not want to see a grant 
denied because of the application process.
    Senator Heitkamp. Just to give you an example, for those 
jurisdictions who apply for assistance from the Forest Service, 
it is a one-page application. Yours can take as much as 200 
hours for pretty skilled folks to fill out. They are hiring 
grant writers. And so just take a look at that, I think that to 
the extent that you can streamline that process, especially for 
rural firefighters.
    I want to also talk about border--back to the rural 
borders. We have an extraordinarily difficult time keeping 
employees, Federal employees, in North Dakota. The cost of 
living has increased. I think this has had a very dramatic 
effect on Customs and Border Protection and on Border Patrol, 
especially in remote outlooks. I am wondering what additional 
steps your agency can take to recruit and retain and reward 
these folks for living in places where other people would not 
maybe want to live--I think they are beautiful, but other 
people may not want to live there--just so that we can maintain 
that situational awareness in remote outposts.
    Secretary Johnson. That is a good question. I am sure that 
there are some sorts of incentives we provide to encourage our 
CBP personnel to serve in all parts of the country. I have to 
believe your State in particular is a great place to live.
    Senator Heitkamp. Thank you. It is.
    Secretary Johnson. But let me look at that question, 
Senator.
    Senator Heitkamp. I think anything that you can do that 
would be helpful to address the concerns of rural America as it 
relates to homeland security. And I am not just talking about 
borders, but obviously interior-wise, I would challenge you to 
take a look at what is happening with the volunteer fire 
departments. Volunteer fire departments are losing volunteers. 
It is harder and harder to recruit new members. We are aging in 
place. I cannot give you the exact statistic, but I think about 
80 percent of the land mass in this country is protected, 
probably over that, by volunteer firefighters.
    And so sometimes we think, as bad things happen in major 
cities and as people focus on population centers, we leave 
behind some of the challenges of providing first responder 
readiness, situational awareness in rural America, and I would 
just challenge you, along with the Deputy when he was out 
there, to give some special attention to our first responders 
and rural America. They are a huge part of our protection.
    Secretary Johnson. Thank you.
    Chairman Johnson. Senator Ayotte.

              OPENING STATEMENT OF SENATOR AYOTTE

    Senator Ayotte. Thank you, Chairman. Thank you, Mr. 
Secretary.
    I wanted to ask you, I come from the proud State of New 
Hampshire, the Live Free or Die State, and one of the things 
that we, I think, put a premium on in our State is privacy and 
issues of personal protection. And we are in a situation where 
on the 2005 REAL ID Act, there are some provisions of it we 
have complied with, 32 of those, but our legislature on a 
bipartisan basis has really spoken for the people of New 
Hampshire and their reflection on prohibiting compliance with 
certain parts of the REAL ID Act. So I guess I have a question 
for you. We also wrote you recently--I do not know if you have 
seen it----
    Secretary Johnson. I have.
    Senator Ayotte [continuing]. Myself and the entire 
delegation, because we have not been granted an additional 
extension where some other States have been in terms of the 
compliance with the REAL ID Act. But I just need to understand 
for the people of New Hampshire--and I support their concerns, 
by the way. I think that this is legitimate, and I think that 
people in New Hampshire, we are a State that certainly values 
protecting our national security and the public, but we are 
also a State that has a long, proud tradition on a bipartisan 
basis of protecting privacy and people's concerns.
    I just want to understand, starting in 2016, since we have 
not yet been granted this extension, will this Administration 
essentially prohibit Granite State families from getting on a 
commercial airline with a valid New Hampshire license? Because 
that seems to me the implication that we have 1.3 million 
people in our State, and I want to understand what happens if 
you have not granted us an extension, like you have other 
States, and we have valid concerns with this law that I think 
that many other people share. And you know what? I support my 
constituents on this.
    Secretary Johnson. Senator, the REAL ID Act was passed by 
Congress in 2005 or 2006, and my Department is charged with 
implementing it. We have done so on a very deliberate timeline. 
I did receive your letter, and our assessment is that it would 
not be very difficult for the State of New Hampshire to put 
itself in a position where we can give you an extension. There 
are a majority of States out there that either have complied or 
have been granted extensions, and I recall from the discussion 
with my staff that it would not be that difficult for the State 
to put itself on the path to an extension, and I would 
certainly encourage you to encourage State officials to do 
that. It is a law that I am charged with implementing.
    Senator Ayotte. Well, Mr. Secretary, I think the issue is 
it would not be that difficult if we do what the Federal 
Government wants us to do, and I think that happens a lot in 
terms of, basically States being told what to do. And this is 
one where my State feels really strongly about it. I hope that 
you will look at our letter seriously again, and I think that 
this has been an issue that New Hampshire has spoken loudly and 
clearly on. And I hope that you will look again at the letter. 
But when you say it is easy for us to comply, I think that 
translates to, yes, if we do what the Federal Government asks 
us to do. And so, again, I hope you will go back, look at the 
letter, because this is a real issue for people in New 
Hampshire, and it is an important issue for them.
    Secretary Johnson. I certainly do not want to see 1.3 
million people in your State have an issue at airports. And so 
our folks want to work with State officials to avoid that.
    Senator Ayotte. Good. I do not either, and I also respect 
their rights to exercise their viewpoints and the importance 
that they place on issues like privacy as well.
    I am really pleased that yesterday the President announced 
the formal nomination of Vice Admiral Peter Neffenger to become 
TSA Administrator, because I know that is a very important 
position that needs to be filled, and I am looking forward to 
us moving quickly on that. And I am also Chair of the Aviation 
Subcommittee, so it is important.
    With regard to TSA Precheck, as we try to increase the 
population participating in the program, which has been a very 
good program, I think it is important that we delineate between 
those who have been vetted and those who have received 
expedited screening through other avenues, such as managed 
inclusion. And I recently had a chance to sit down with 
Inspector General John Roth, and while I cannot get into the 
details in this setting, what is your assessment of the 
Precheck program? What is your assessment of the role of 
managed inclusion, to the extent you can comment on that here? 
And are we sufficiently screening the population and really 
separating those who should be in the program and who should 
not?
    Secretary Johnson. My assessment of TSA Precheck is that it 
is a good program. It is popular with the American public. And 
in this public setting, I will say that I think we have to 
manage managed inclusion very carefully and not overdo it.
    The original intent of TSA Precheck was that people who 
have been vetted go through the shorter lines. And so, I have 
said to TSA I want to be sure that when it comes to the managed 
inclusion facet of the program, that we look at that and we 
manage that very carefully.
    Senator Ayotte. I am glad to hear that, and, in my other 
role as Aviation Chair, I look forward to working with you on 
that. I think it is important. I think Precheck is a great 
program, but we need to make sure that this program is managed 
carefully on the inclusion issue.
    One final question. Manchester-Boston Regional Airport, 
Secretary Johnson, this airport is the largest in my State. It 
serves a lot of folks in the New England region, including 
Boston and New Hampshire, of course. It is a user-fee airport 
with limited access to Customs and Border Protection services. 
How is port of entry defined? And are there instances where 
port of entry encompasses more than one physical or geographic 
location? And is this an issue I can work with you on to 
address some of the concerns that Manchester-Boston Regional 
Airport has raised on port of entry?
    Secretary Johnson. Yes.
    Senator Ayotte. Thank you. I would really appreciate it.
    Secretary Johnson. I do not know the answer to the question 
you asked about how to define port of entry, but I am happy to 
have further dialogue about that.
    Senator Ayotte. I would appreciate it. Thank you.
    Secretary Johnson. OK.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Secretary Johnson, thank you. It is good 
to see you again, and I want to say thank you again publicly to 
you for being in Oklahoma City on April 19 when we were 
remembering the Murrah Building explosion 20 years ago and for 
your----
    Secretary Johnson. I was really pleased to be there, and I 
thought it was a great day.
    Senator Lankford. It was. That is the day that Oklahomans 
continue to remember and the Nation continues to remember, and 
thank you for coming and being part of that. Your words were 
spot on. So thanks for being there as well.
    I have a whole litany of issues, so I am going to run 
through them fairly quickly. One is dealing with the flood 
mapping issues with the Federal Emergency Management Agency 
(FEMA). Obviously, we have a $1 billion cost here to redo the 
flood maps when Congress just changed with the Biggert-Waters 
bill how we are going to actually grandfather in a lot of those 
policies--which, by the way, I disagree with that whole 
decision, but that is a conversation for another day.
    At the end of it, we have a $1 billion cost coming down 
from FEMA to remap when those maps will not actually be used 
for revised flood costs for the risk insurance. Is that a good 
use--is there a better time to do that--of those other dollars? 
Why put it in this year and at this time?
    Secretary Johnson. Well, we need new flood maps. I think it 
is time to do that. We need new flood maps, and it is not 
inexpensive, very clearly. I am interested in a solvent Flood 
Insurance Program that is affordable for the insureds, for your 
constituents and others. And so it is time for new flood maps. 
It is something we need to do.
    Senator Lankford. I am, too. Well, we can talk about that 
further. One of the things I would challenge as well is in many 
areas of my State, through the initial mapping that was done 
and the way that it was done, many areas were looped into flood 
space that were not traditionally flood space. When they went 
back to an engineer that was local and an engineer actually 
shot it locally and then did the challenge, over and over again 
those were being overturned. And I do not know what the rate is 
nationally, but the stories over and over again are coming 
back, if they come back and challenge it and can show 
documentation, they are getting it overturned. But it is 
costing each of these homeowners about $1,000 to $2,000 to come 
and have someone physical shoot it rather than do that from 
satellites. So there are some challenges that we are going to 
have to work through the process to make sure it does not 
increase the cost for the individuals while we are dealing with 
flood mapping as well.
    Secretary Johnson. I hear you on that.
    Senator Lankford. Let me go through a couple other things 
as well. I know DHS has some protocols in place on this, but I 
want to be able to just reaffirm on the budget issues, 
protocols or memorandums of understanding (MOU) in place with 
other agencies to ensure there is not duplication of effort. 
Obviously, there are multiple grants; there are multiple 
efforts that DHS does that other entities also do. I just want 
to make sure that actively DHS is working to have those 
memoranda of understanding in place so we are not duplicating 
effort with other agencies. Do you feel comfortable we are at 
that spot?
    Secretary Johnson. Yes, that is a priority of mine. Yes, 
sir.
    Senator Lankford. OK, great. We will followup on that.
    OK. This is just a personal pet peeve. We are going to go 
off the rails for a minute.
    Secretary Johnson. OK.
    Senator Lankford. This is something that has been there for 
10 years that I would like to see shift at some point.
    Secretary Johnson. OK.
    Senator Lankford. The U.S. Citizenship and Immigration 
Services (USCIS) questionnaire in the civics test, the oral 
test, has in it one of these things: What are two rights of 
everyone living in the United States? And then it lists out six 
different things: freedom of expression, freedom of speech, 
freedom of assembly, freedom to petition the government, 
freedom of worship, the right to bear arms.
    Now, this has been around for a decade. I would love to see 
``freedom of worship'' actually shift to ``freedom of 
religion.'' We in the United States actually have freedom of 
religion, not freedom of worship. Worship confines you to a 
location. Freedom of religion, we have the right to express. We 
have this unique ability in America not to say that our 
government limits us to worship in this spot and you can do 
anything you want. It is to be able to live your faith. Again, 
that is previous conversations on it, but love for you to be 
able to take a look at that again.
    Let me also affirm something. Right after the Federal judge 
put a stay on the policy change on immigration late last year, 
you publicly came out quickly and said DHS will follow the 
Federal judge.
    Secretary Johnson. Yes.
    Senator Lankford. That what they have stated, we are going 
to stop and we are going to follow the Federal judge.
    Secretary Johnson. Yes.
    Senator Lankford. So thank you for stepping up to be able 
to do that. Here is the challenge and where I have had some 
back and forth on it, because the Subcommittee that I chair 
also has the Federal workforce in it. As you know, DHS has had 
some challenges just on worker morale with the Federal 
agencies. Again, that has been there for a long time. You have 
walked into it. But that is a great responsibility that you 
have, is to be able to reinforce some absolutely fantastic 
people that serve with DHS around the country, that literally 
put their lives on the line for Americans every single day, 
quietly, behind the scenes, and do great work. So we are 
incredibly grateful for the work that they do all the time.
    But when you made that statement, and then a week later the 
President during a town hall meeting in Miami made the 
statement--when someone challenged him and said, ``Are we going 
to be deported during this time period since this judge has 
made this statement?'' he responded back, ``There will be 
consequences for any ICE agent that does not follow my 
policy.''
    Now, I am not asking you to be able to repeat back the 
President. That is not fair to you. What I am asking is: I 
started getting responses back from DHS folks saying, ``We do 
not know which way to go. The Secretary said we are going to 
follow it. We feel like the President just said there are 
consequences if we do not follow his new policy. And we are in 
a bad spot.''
    The challenge is: How are you managing that within the 
entity to be able to communicate back to people there will not 
be consequences on individuals if they follow the law and if 
they follow a judge's order?
    Secretary Johnson. Well, let me be very clear about 
something. What was enjoined was implementation of a new 
program called the Deferred Action for Parenthood Arrivals.
    Senator Lankford. Correct.
    Secretary Johnson. As well as the expanded criteria, 
certain very specific criteria that expanded upon the DACA 
program from 2012. Those are the two things that are the 
subject of the litigation.
    Senator Lankford. Correct.
    Secretary Johnson. What is not a subject of the litigation 
are the new revised priorities for how we focus our removal 
resources. That is a separate policy, which I issued out on 
November 20.
    Senator Lankford. Correct.
    Secretary Johnson. Which is not subject to the litigation.
    Senator Lankford. Right. Aware of all that.
    Secretary Johnson. And that has been trained to the 
workforce, the ICE workforce, the CBP workforce, and that is 
going forward and should be going forward. I believe in 
training the workforce. I believe in educating the workforce. 
From my time at the Department of Defense, I know that that is 
essential. And, Senator, if you believe that there are elements 
of my workforce in your State that have some doubt about it, 
then I would be happy to work to clarify it.
    Senator Lankford. What can be done from your office to 
reinforce back to the workforce both that they are protected, 
if they have an issue, they can still be a whistleblower, that 
they do not have to live in fear, that they can still follow 
policy that is clear policy and clear law, and they have the 
sense that I can still do my job and what I have done for a 
long time without retribution?
    Secretary Johnson. Well, I have encouraged people 
repeatedly, again, if there is a particular field office of any 
one of our components where we think that there is some 
confusion or doubt about that, I am happy to focus on that like 
a laser beam to make sure that there is clarity. I think 
clarity in how we train, how we educate on new policies is 
critical. I know that from my DOD experience.
    Chairman Johnson. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you, Secretary Johnson, for your 
testimony. Do you believe the Fourth Amendment applies to 
third-party records?
    Secretary Johnson. I am not sure what you mean by third-
party records, sir. What do you mean?
    Senator Paul. Telephone company records.
    Secretary Johnson. You are asking me a legal question.
    Senator Paul. It is a pretty big question.
    Secretary Johnson. Yes, I am sorry, Senator. I am not sure 
I know how to answer that.
    Senator Paul. Do you believe the government has the right 
to have bulk collection of records from millions of individuals 
without a warrant?
    Secretary Johnson. Ah, I see. I respectfully say that is 
beyond my competence as the Secretary of Homeland Security to 
answer in any intelligent legal way. I would not want to hazard 
a legal judgment on that.
    Senator Paul. Here is the problem, though. Your agency is 
in charge of cooperating and being part of this. And that is 
the whole debate we have in our country, is over whether you 
should do this. In your testimony, you complain about 
encryption. Why do you think that companies are choosing to go 
in the direction of more encryption? It is because they feel 
you are taking our information without a warrant.
    So I would hazard that and I would propose that there is no 
person named ``Verizon,'' so you do not have an individualized 
warrant under the Fourth Amendment when you say to Mr. Verizon 
we want hundreds of millions of records. And this is a debate, 
and it is an important one, and if we are going to complain 
about encryption or we are going to complain about individuals 
wanting privacy, we really need to have a thorough discussion 
and understanding of the Fourth Amendment and the complaints by 
many of us that you are doing something without a warrant.
    The other thing I would say is with encryption, I am one of 
the biggest civil libertarians there is, but if you have a 
warrant, I am fine with you getting and unencrypting data from 
people. I am also fine with you going 20 hops into the data. I 
do not care how deep you go into it. Just call a judge.
    What we need to do is have a system where judges are on 
call 24 hours a day, but still there is a judge. The reason we 
separated the judiciary from the police is a very important 
one. The civil rights era, tens of thousands, if not hundreds 
of thousands of people were spied upon in our country. War 
protesters were spied upon in our country. The reason we 
separated the judiciary from the police is to try to prevent 
the possibility of bias. And people say, ``Oh, the government 
is good.'' But look at the times when the government was not so 
good. The Federal Bureau of Investigation (FBI) Director 
recently pointed back and talked about the times when Martin 
Luther King was spied upon. That is why we want these 
procedural protections.
    And so I think as you look forward and as you talk about 
this, just realize that when you have your doubts about 
encryption, think back to the times in our history when we did 
not do so good a job. Those of us who want to try to protect 
privacy are trying to make sure that no sort of institutional 
bias could enter into our legal system again. And I think it is 
a very big question, and there are some of us who say by all 
means get all the information you need on terrorists, but get a 
warrant with someone's name on it. If it does not work well, 
put more judges there and have them on the phone 24 hours a 
day. We do it for the police. The police do not go into a home 
unless there is a commotion going on or imminent danger. The 
police stand on the curb at 3 in the morning, and they call a 
judge. We should do the same for American citizens, and we 
really should not be collecting their data in bulk. That is why 
we are mad, and that is why people are attempting to encrypt 
information, is to prevent the government from doing illegal 
searches of our records.
    Secretary Johnson. May I respond?
    I gave a speech to 3,000 people at a cybersecurity 
conference last week where I brought up the subject of 
encryption. I was not real popular for doing that. The problem 
we have is that the marketplace is demanding deeper and deeper 
encryption into places where the warrant authority of the 
government does not extend. So the analogy I used last week in 
that speech was imagine after the advent of the telephone, the 
warrant authority of the government only extends to the U.S. 
mail.
    Senator Paul. I am not sure I understand that. Why would 
the warrant authority not extend?
    Secretary Johnson. Because with encryption there are 
communications that records of which are simply not being 
maintained because of the added security that is being put in 
place because of the privacy demands that exist in the 
marketplace.
    Senator Paul. Which is a response to the government 
collecting all of our records. See, you have to realize that 
the real culprit is government. You have been so overzealous in 
vacuuming up all of our records without a legitimate warrant 
that everybody around the world--it is costing the United 
States billions of dollars in the sense that people in Europe 
and around the world do not want our stuff. They do not want 
any of our hardware embedded in any of their computer code 
because they are worried that the government is going to stick 
stuff in there and that you will have back-door access and you 
are demanding access, so no one wants to buy our stuff. So it 
has been a big problem for our companies selling things 
worldwide, but it is a response to a government that did not 
have, I think, a real sense of decency toward privacy. The 
companies are in response to your behavior.
    Secretary Johnson. Well, look, I am in favor of a balanced 
solution to the problem. In fact, it is now harder for law 
enforcement to detect criminal activity out there. And I think 
it is something we need to address one way or another, and I am 
in favor of a balanced approach that takes account of the 
privacy interest of the American public.
    Senator Paul. But you think it is a balanced approach to 
collect all of the phone records and store them in Utah without 
an individualized warrant? You think that is a balanced 
approach?
    Secretary Johnson. I do not have a particular comment or 
specific view about the past. I am concerned about the future 
and the direction we are headed and the effect it is having on 
our ability to detect crime and potential terrorist activity.
    Senator Paul. But here is the question. See, the question--
the President's own Privacy Committee recommended that we quit 
collecting these. He has the power to stop it at any point in 
time, and yet he is not doing a thing. His own Privacy 
Committee that he appointed said that you have gone too far in 
the bulk collection of records, and the President has done 
nothing to stop it, although this is an Executive Order program 
that he could stop at any point if he chose to. I do not think 
that is a balanced approach to continue doing what his Privacy 
Committee specifically said exceeds the bounds where the 
Constitution intended.
    Secretary Johnson. I think we are looking forward for 
Congress to act in this area.
    Chairman Johnson. OK. Thanks, Senator Paul. I did assure 
the Secretary that I would get him to the Prime Minister of 
Japan's speech on time, so we will close out the hearing. I 
know the Ranking Member have some statements that he would like 
to enter in the record and may offer some more.
    Senator Carper. Yes, I do. Just briefly, if I could. Again, 
our thanks to you for being here with us today and for your 
leadership.
    The issue raised by Senator McCain, I just want to give a 
brief, two-sentence clarification. This comes out of the Office 
of Immigration Review's Statistical Yearbook for Fiscal Year 
2014: ``Rates of appearances for unaccompanied children and 
families compare favorably to appearance rates for the general 
immigration court population. in completed cases in FY 2014, 66 
percent of all non-detained immigrants appeared according to 
the Executive Office of Immigration Review's Statistical 
Yearbook. When minors are represented by counsel, that rate 
goes up to 90 percent or higher.''
    I ask unanimous consent, Mr. Chairman, for the record to 
include in our statement and our hearing materials this piece 
of work from the American Immigration Council dated July 
2014.\1\
---------------------------------------------------------------------------
    \1\ The statements referenced by Senator Carper appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    Chairman Johnson. OK. Sure.
    Senator Carper. And I have a number of questions that I 
want to ask you for the record, if I could, and I would just 
look forward to your responses. Thank you so much.
    Secretary Johnson. Thank you.
    Chairman Johnson. Without objection.
    I guess my final closing comment is that we have talked 
about 100 percent situational control of the border. I think 
you appropriately answered that is not going to happen within 
this Administration.
    I guess I would just encourage this Administration to look 
at a step-by-step approach. I know it has been said that it has 
to be comprehensive. We need to start increasing the level of 
security at our border. There are dozens of things that we need 
to do.
    So, Mr. Secretary, I just would really hope that the 
Department will work with this Committee, work with this 
office, and let us start taking that step-by-step approach. I 
come from a manufacturing background. Continuous improvement. 
You are not going to solve the entire problem overnight. You 
are not going to solve the entire problem with some 
comprehensive approach. So if you could just provide me that 
assurance you will have an opinion mind and at least look at 
the individual step-by-step approach so we can start increasing 
the security on the border, it would be appreciated.
    There will be, I am sure, a number of additional questions 
for the record. The hearing record will remain open for 15 days 
until May 14 at 5 p.m. for the submission of statements and 
questions for the record.
    Secretary Johnson. Thank you.
    Chairman Johnson. This hearing is adjourned.
    [Whereupon, at 10:37 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 




                                 [all]
</pre></body></html>
